     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



February 27, 2012

Report Number: A-09-11-02019

Ron Chapman, M.D., M.P.H.
Director & State Health Officer
California Department of Public Health
1615 Capitol Avenue, MS 0500
Sacramento, CA 95899-7377

Dear Dr. Chapman:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Federal Survey Requirements Not Always Met for Three
California Nursing Homes Participating in the Medicare and Medicaid Programs. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-11-02019 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ron Chapman, M.D., M.P.H.


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




FEDERAL SURVEY REQUIREMENTS
 NOT ALWAYS MET FOR THREE
 CALIFORNIA NURSING HOMES
PARTICIPATING IN THE MEDICARE
   AND MEDICAID PROGRAMS




                       Daniel R. Levinson
                        Inspector General

                         February 2012
                         A-09-11-02019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Medicare and Medicaid programs cover care in skilled nursing and nursing facilities
(nursing homes), respectively, for eligible beneficiaries. Sections 1819 and 1919 of the Social
Security Act provide that nursing homes participating in the Medicare and Medicaid programs,
respectively, must meet certain specified requirements (Federal participation requirements).
These sections also establish requirements for the Centers for Medicare & Medicaid Services
(CMS) and States to survey nursing homes to determine whether they meet Federal participation
requirements.

The State survey agency must, as set forth in Federal regulations at 42 CFR § 488.305(a) and in
section 7200 of CMS’s State Operations Manual (the Manual), Pub. No. 100-07, conduct
standard surveys to determine whether nursing homes are in compliance with Federal
participation requirements. A standard survey is an inspection to gather information about the
quality of resident care furnished in a nursing home.

Federal regulations (42 CFR § 488.301) define a nursing home’s noncompliance with Federal
participation requirements as a deficiency. The State survey agency must report to the nursing
home and CMS each deficiency identified during a survey, including the seriousness of the
deficiency (deficiency rating). The State survey agency is required to follow guidance in the
Manual when determining the deficiency rating. The deficiency rating guides the selection of
the appropriate enforcement action, such as denial of payment for all new Medicare and/or
Medicaid admissions and imposition of civil monetary penalties.

For all deficiencies except those with the lowest rating, Federal regulations (42 CFR
§ 488.402(d)) require nursing homes to submit correction plans for approval to the State survey
agency or CMS. The Manual states that a correction plan must address five corrective action
elements and specify exactly how each deficiency was or will be corrected. The Manual also
requires the State survey agency to review the correction plans for appropriateness and
completeness. After a correction plan is submitted, the Manual instructs the State survey agency
to certify whether a nursing home is in substantial compliance with Federal participation
requirements. A nursing home is in substantial compliance when identified deficiencies have
ratings that represent no greater risk than potential for minimal harm to resident health and
safety.

The State survey agency must determine whether a nursing home is in substantial compliance by
verifying correction of the identified deficiencies through an onsite review (followup survey) or
obtaining evidence of correction. The deficiency rating guides which verification method the
State survey agency uses. For less serious deficiencies, the State survey agency may accept
evidence of correction in lieu of conducting a followup survey to determine substantial
compliance.




                                                i
CMS uses survey data for every certified Medicare and Medicaid nursing home, including
deficiencies and their ratings, in information provided to the public on its Nursing Home
Compare Web site.

In California, the Department of Public Health, Licensing and Certification Division (the
Division), is the designated State survey agency. Accordingly, the Division determines whether
nursing homes meet Federal participation requirements.

OBJECTIVE

Our objective was to determine whether the Division determined deficiency ratings, ensured the
adequacy of correction plans, and verified nursing homes’ correction of identified deficiencies in
accordance with Federal requirements.

SUMMARY OF FINDINGS

From 2006 through 2008, the Division did not always determine deficiency ratings, ensure the
adequacy of correction plans, and verify nursing homes’ correction of identified deficiencies in
accordance with Federal requirements. For 3 nursing homes that we judgmentally selected, the
Division:

   •   understated the deficiency ratings for 23 of 178 deficiencies (13 percent), including
       9 deficiencies that involved actual harm to resident health and safety;

   •   did not ensure that 40 of 52 correction plans (77 percent) contained specific information
       addressing the 5 corrective action elements for the deficiencies identified; and

   •   did not verify the nursing homes’ correction of identified deficiencies by obtaining
       evidence of correction for 4 of 9 standard surveys (44 percent) before certifying
       substantial compliance with Federal participation requirements when followup surveys
       were not conducted.

Understated deficiency ratings result in inaccurate information on the Nursing Home Compare
Web site. The ratings also may affect recommended enforcement actions and the Division’s
method of verifying nursing homes’ correction of identified deficiencies before certifying
substantial compliance with Federal participation requirements. In addition, the Division district
offices’ practices of not always ensuring the adequacy of correction plans and verifying
correction of identified deficiencies by obtaining evidence of correction could have contributed
to deficiencies that recurred three or more times from 2006 through 2008. However, we could
not conclusively determine that district office practices contributed to these recurring
deficiencies because a review of the recurrence of deficiencies under other circumstances was
beyond the scope of our review.

The Division district offices did not always follow guidance in the Manual. According to the
district office supervisors, surveyors used their judgment and interpretation of Manual guidance
in determining deficiency ratings. In addition, surveyors used their judgment in ensuring the


                                                ii
adequacy of correction plans and verifying nursing homes’ correction of identified deficiencies.
Based on our findings that surveyors understated deficiencies, did not ensure that corrective
action plans contained specific information addressing the five corrective action elements, and
did not verify correction of identified deficiencies, it appears that the surveyors used their
judgment in contradiction to guidance in the Manual.

RECOMMENDATIONS

We recommend that the Division provide guidance and training to district offices to ensure that
surveyors comply with the Manual in (1) determining appropriate deficiency ratings,
(2) ensuring that correction plans contain specific information addressing the five corrective
action elements for each deficiency identified, and (3) verifying correction of identified
deficiencies by obtaining evidence of correction when followup surveys are not required.

AUDITEE COMMENTS

In its written comments on our draft report, the Division agreed with our recommendations and
provided information on actions that it had taken and planned to take based on our
recommendations. The Division stated that it had included the five corrective action elements as
part of its training program in 2011. In addition, the Division stated that it will include our
training recommendations in its 2012 and 2013 training academies for new, advanced, and
supervisory surveyors.

As part of its comments, the Division provided lesson plans for the training curriculum. The
Division’s comments, excluding the lesson plans, are included as the Appendix.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Medicare and Medicaid Coverage of Nursing Homes .......................................1
              Standard and Complaint Surveys of Nursing Homes ........................................1
              Deficiencies and Deficiency Ratings .................................................................2
              Correction Plans .................................................................................................2
              Nursing Home Compare System .......................................................................3
              California Survey Agency..................................................................................3
              Prior Office of Inspector General Report...........................................................4

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................4
               Objective ............................................................................................................4
               Scope ..................................................................................................................4
               Methodology ......................................................................................................5

FINDINGS AND RECOMMENDATIONS ..........................................................................6

          UNDERSTATED DEFICIENCY RATINGS ...............................................................7
              Example of Understated Severity ......................................................................7
              Example of Understated Scope ..........................................................................8

          INADEQUATE CORRECTION PLANS ....................................................................8

          LACK OF VERIFICATION OF DEFICIENCY CORRECTION ................................9

          IMPACT OF FINDINGS ...............................................................................................10
               Impact on Nursing Home Compare ...................................................................10
               Potential Impact on Enforcement Actions and Method of Verifying
                 Correction of Deficiencies .............................................................................10
               Potential Impact on Recurrence of Deficiencies ................................................11

          FAILURE TO FOLLOW FEDERAL GUIDANCE ......................................................11

          RECOMMENDATIONS ...............................................................................................12

          AUDITEE COMMENTS...............................................................................................12

OTHER MATTER: NONCOMPLIANT FOLLOWUP SURVEY PRACTICE ..............12

APPENDIX: AUDITEE COMMENTS




                                                                    iv
                                             INTRODUCTION

BACKGROUND

Medicare and Medicaid Coverage of Nursing Homes

The Medicare and Medicaid programs cover care in skilled nursing and nursing facilities
(nursing homes), respectively, for eligible beneficiaries in need of nursing services, specialized
rehabilitation services, medically related social services, pharmaceutical services, and dietary
services. Sections 1819 and 1919 of the Social Security Act (the Act) provide that nursing
homes participating in the Medicare and Medicaid programs, respectively, must meet certain
specified requirements (Federal participation requirements). These sections also establish
requirements for the Centers for Medicare & Medicaid Services (CMS) and States to survey
nursing homes to determine whether they meet Federal participation requirements. These
statutory participation and survey requirements are combined in Federal regulations at
42 CFR part 483, subpart B, and 42 CFR part 488, subpart E, respectively.

Standard and Complaint Surveys of Nursing Homes

Section 1864(a) of the Act requires the Secretary of Health and Human Services to use the State
health agency, or other appropriate State agency, to determine whether nursing homes meet
Federal participation requirements. Further, section 1902(a)(33) of the Act requires the State to
use the same State agency to determine whether nursing homes meet the requirements for
participation set forth in the State Medicaid plan.

Under the agreement with the Secretary and under the State plan, the State agency must, as set
forth in Federal regulations at 42 CFR § 488.305(a) and in section 7200 of CMS’s State
Operations Manual (the Manual), Pub. No. 100-07, conduct standard surveys to determine
whether nursing homes are in compliance with Federal participation requirements. 1 A standard
survey is a periodic nursing home inspection based on procedures specified in the Manual.
These procedures focus on a sample of residents selected by the State survey agency to gather
information about the quality of resident care furnished to Medicare and/or Medicaid
beneficiaries in a nursing home. Federal regulations (42 CFR § 488.308(a)) require that a
standard survey be conducted at least once every 15 months.

Federal regulations (42 CFR § 488.308(e)(2)) also require the State survey agency to review all
nursing home complaint allegations. 2 Depending on the outcome of the review, the State survey
agency may conduct a standard survey or an abbreviated standard survey (complaint survey) to
investigate noncompliance with Federal participation requirements. Federal regulations
(42 CFR § 488.301) define noncompliance with Federal participation requirements as a
deficiency. Examples of noncompliance include a nursing home’s failure to provide necessary

1
 CMS and the State survey agency certify compliance with Federal participation requirements for State-operated
and non-State-operated nursing homes, respectively.
2
 An allegation of improper care or treatment of beneficiaries may come from a variety of sources, including
beneficiaries, family members, and health care providers.


                                                         1
treatment to promote healing of a resident’s pressure sore and failure to provide nutritional
services.

Deficiencies and Deficiency Ratings

The State survey agency must report each deficiency identified during a survey on the
appropriate form 3 published by CMS and provide the forms to the nursing home and CMS.
These forms include (1) a statement describing the deficiency, (2) a citation of the specific
Federal participation requirement that was not met, and (3) a rating for the seriousness of the
deficiency (deficiency rating).

Federal regulations (42 CFR § 488.404(b)) require the State survey agency to determine the
deficiency rating using severity and scope components. Severity is the degree of or potential for
resident harm and has four levels: (1) potential for minimal harm, (2) potential for more than
minimal harm, (3) actual harm, and (4) immediate jeopardy. Scope is the number of residents
affected or pervasiveness of the deficiency in the nursing home and has three levels: (1) isolated,
(2) patterned, and (3) widespread.

The deficiency rating guides the selection of the appropriate enforcement action. Federal
regulations (42 CFR § 488.408(b)) provide CMS and the State survey agency with the authority
to impose one or more enforcement actions, such as correction plans directed by the survey
agency, denial of payment for all new Medicare and/or Medicaid admissions, and civil monetary
penalties.

Correction Plans

Federal regulations (42 CFR § 488.402(d)) require nursing homes to submit for approval
correction plans to the State survey agency or CMS for all deficiencies, except for deficiencies
with a rating that represents the severity and scope levels of potential for minimal harm and
isolated, respectively. Section 7304D 4 of the Manual states that a correction plan must address
five corrective action elements. Section 2728B of the Manual states that a correction plan must
specify exactly how each deficiency was or will be corrected.

After a correction plan is submitted, section 7317 of the Manual instructs the State survey agency
to certify whether a nursing home is in substantial compliance with Federal participation
requirements. A nursing home is in substantial compliance when identified deficiencies have
ratings that represent no greater risk than potential for minimal harm to resident health and
safety. The State survey agency must determine whether there is substantial compliance by
verifying correction of the identified deficiencies through an onsite review (followup survey) or



3
 Form CMS-2567, Statement of Deficiencies and Plans of Correction, is used for all deficiencies except for
deficiencies determined to be isolated and with the potential for minimal harm. For these deficiencies, Form A,
Statement of Isolated Deficiencies Which Cause No Harm with Only a Potential for Minimal Harm, is used.
4
 When CMS revised the chapter 7 section designations in a September 10, 2010, revision of the Manual, section
7304D changed to 7304.4.


                                                         2
obtaining evidence of correction. 5 The deficiency rating guides which verification method the
State survey agency uses. For less serious deficiencies, the State survey agency may accept
evidence of correction in lieu of conducting a followup survey to determine substantial
compliance. Further, section 2762 of the Manual requires the State survey agency to certify
whether the nursing home is in substantial compliance and provide the certification information
to CMS on Form CMS-1539, Medicare/Medicaid Certification and Transmittal (certification
letter).

Nursing Home Compare System

CMS uses survey data for every certified Medicare and Medicaid nursing home, including
quality-of-care deficiencies and their ratings, in information provided to the public on its Nursing
Home Compare Web site. Nursing Home Compare uses a five-star rating scale to help
consumers, their families, and caregivers compare nursing homes. A five-star rating represents
the highest quality rating. The determination of the star rating is based in part on the nursing
home’s number of deficiencies and deficiency ratings that were identified during the three most
recent standard surveys and the most recent 36 months of complaint surveys.

California Survey Agency

In California, the Department of Public Health, Licensing and Certification Division (the
Division), is the designated State survey agency. Accordingly, the Division determines whether
nursing homes meet Federal participation requirements and recommends to CMS whether
nursing homes should be certified for participation in the Medicare and/or Medicaid program.
The Division also determines whether nursing homes comply with State laws and regulations.
According to the Division, in 2010, over 600 surveyors worked in teams at 18 district offices.
The Division estimated that it performed surveys for over 1,275 nursing homes, of which
approximately 68 percent were occupied by Medicaid residents, and responded to approximately
6,650 complaints.

Within the Division, the Staff Education and Quality Improvement Section (the QI unit)
performs training and quality improvement functions, including audits of district offices,
development of training and education for surveyors, reviews of enforcement actions, and
reviews of deficiencies that involve actual harm or substandard quality of care. 6




5
 Examples of evidence of correction include sign-in sheets of those attending in-service training and interviews
with training participants.
6
  Pursuant to 42 CFR § 488.301, substandard quality of care means one or more deficiencies for unmet Federal
participation requirements under 42 CFR § 483.13 - Resident behavior and facility practices; 42 CFR § 483.15 -
Quality of life; or 42 CFR § 483.25 - Quality of care, with a deficiency rating that constitutes either immediate
jeopardy to resident health or safety, a pattern of or widespread actual harm that is not immediate jeopardy, or a
widespread potential for more than minimal harm.


                                                          3
Prior Office of Inspector General Report

In September 2011, we issued a report on the Division’s complaint survey process from 2006
through 2008 at three nursing homes that we judgmentally selected. 7 For 24 of 47 complaint
surveys, we identified 41 deficiencies for which the Division did not identify and report
deficiencies for unmet Federal participation requirements; instead, the Division cited only unmet
State requirements. We recommended that the Division revise its policy and procedures for
investigating complaints to require State surveyors to identify and report deficiencies for all
unmet Federal participation requirements. In its written comments, the Division disagreed with
our recommendation, stating that there were insufficient Federal funds to use the Federal
process.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Division determined deficiency ratings, ensured the
adequacy of correction plans, and verified nursing homes’ correction of identified deficiencies in
accordance with Federal requirements.

Scope

We reviewed deficiencies and correction plans for standard, complaint, and followup surveys
conducted from 2006 through 2008 at three California nursing homes that we judgmentally
selected. 8 Three different district offices had oversight jurisdiction over these nursing homes.
We selected the nursing homes based on the number of residents admitted to the hospital with
diagnoses of pressure sores and/or infections (indicating potential quality-of-care issues at the
nursing homes) and the number of beds in the nursing homes compared with other nursing
homes in the State. The nursing homes included both Medicare and Medicaid beneficiaries.

We excluded from our review the nursing homes’ self-reported and physical environment
deficiencies (42 CFR § 483.70). In determining whether the Division obtained evidence of
correction, we reviewed only the nursing home certification letters that the Division submitted to
CMS.

We did not review the overall internal control structure of the Division. Rather, we reviewed
only those internal controls related to our objective.

We performed our review from August 2009 to March 2011 and conducted fieldwork at the
Division’s offices in Sacramento and Chico, California, and at three district offices in Southern
California.

7
 Unidentified and Unreported Federal Deficiencies in California’s Complaint Surveys of Nursing Homes
Participating in the Medicare and Medicaid Programs (A-09-09-00114), issued September 21, 2011.
8
 We reviewed one standard survey from December 2005 because a standard survey was not conducted in 2006 for
one of the nursing homes.


                                                      4
Methodology

To accomplish our objective, we

     •    reviewed applicable Federal laws, regulations, and guidance and the State Medicaid
          plan;

     •    interviewed CMS Region IX program officials regarding the Division’s oversight
          responsibilities and CMS’s management information systems for nursing homes;

     •    interviewed Division management regarding survey operations, quality assurance, and
          training;

     •    interviewed district office supervisors and staff responsible for surveys;

     •    reviewed Division training manuals for supervisors;

     •    reviewed 178 deficiencies identified in 9 standard and 2 followup surveys conducted at
          the 3 judgmentally selected nursing homes and compared the deficiency statements with
          guidance provided in the Manual to determine whether the surveyors determined
          appropriate deficiency ratings (i.e., severity and scope levels);

     •    reviewed 52 correction plans for 52 judgmentally selected deficiencies identified during
          standard surveys to determine whether the Division ensured that the plans contained
          specific information addressing the 5 corrective action elements;

     •    requested the QI unit to review 20 deficiency ratings 9 that we determined to be
          potentially understated and 40 correction plans that we determined did not contain
          specific information addressing the 5 corrective action elements;

     •    reviewed the Division’s certification letters to CMS for 9 standard surveys to determine
          whether the Division verified nursing homes’ correction of identified deficiencies by
          obtaining evidence of correction before certifying the nursing homes’ substantial
          compliance with Federal participation requirements when followup surveys were not
          conducted; and

     •    evaluated the 178 deficiencies identified in 9 standard and 2 followup surveys, as well as
          60 deficiencies identified in 47 complaint surveys, 10 for trends of recurring deficiencies
          from 2006 through 2008.


9
 We requested the QI unit to review only the scope for 20 deficiencies because the Manual does not provide
specific examples for determining scope levels; it only provides definitions of scope levels.
10
  The 47 complaint surveys were included in our September 21, 2011, report (A-09-09-00114). For the 47
complaint surveys, we identified the applicable unmet Federal participation requirement using the statement
describing the deficiency when the Division did not identify or report an unmet Federal participation requirement.


                                                         5
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

From 2006 through 2008, the Division did not always determine deficiency ratings, ensure the
adequacy of correction plans, and verify nursing homes’ correction of identified deficiencies in
accordance with Federal requirements. For 3 nursing homes that we judgmentally selected, the
Division:

   •   understated the deficiency ratings for 23 of 178 deficiencies (13 percent), including
       9 deficiencies that involved actual harm to resident health and safety;

   •   did not ensure that 40 of 52 correction plans (77 percent) contained specific information
       addressing the 5 corrective action elements for the deficiencies identified; and

   •   did not verify the nursing homes’ correction of identified deficiencies by obtaining
       evidence of correction for 4 of 9 standard surveys (44 percent) before certifying
       substantial compliance with Federal participation requirements when followup surveys
       were not conducted.

Understated deficiency ratings result in inaccurate information on the Nursing Home Compare
Web site. The ratings also may affect recommended enforcement actions and the Division’s
method of verifying nursing homes’ correction of identified deficiencies before certifying
substantial compliance with Federal participation requirements. In addition, the Division district
offices’ practices of not always ensuring the adequacy of correction plans and verifying
correction of identified deficiencies by obtaining evidence of correction could have contributed
to deficiencies that recurred three or more times from 2006 through 2008. However, we could
not conclusively determine that district office practices contributed to these recurring
deficiencies because a review of the recurrence of deficiencies under other circumstances was
beyond the scope of our review.

The Division district offices did not always follow guidance in the Manual. According to the
district office supervisors, surveyors used their judgment and interpretation of Manual guidance
in determining deficiency ratings. In addition, surveyors used their judgment in ensuring the
adequacy of correction plans and verifying nursing homes’ correction of identified deficiencies.
Based on our findings that surveyors understated deficiencies, did not ensure that corrective
action plans contained specific information addressing the five corrective action elements, and
did not verify correction of identified deficiencies, it appears that the surveyors used their
judgment in contradiction to guidance in the Manual.




                                                6
UNDERSTATED DEFICIENCY RATINGS

Section 2712 of the Manual states that survey protocols and interpretive guidelines are
authorized interpretations of mandatory requirements set forth in provisions of Federal laws and
regulations and are to be used in determining a provider’s compliance with Federal participation
requirements. Further, section 7200 of the Manual instructs surveyors to follow survey
procedures in Appendix P when conducting surveys of nursing homes. Appendix P of the
Manual provides guidelines for determining deficiency ratings, including severity and scope
levels. In addition, Appendix PP of the Manual provides interpretive guidelines regarding
Federal participation requirements and includes examples of severity levels.

Section 7400E 11 of the Manual provides information on the severity and scope levels used to
determine deficiency ratings and the letters representing those ratings. Table 1 shows the letter
for each deficiency rating and its severity and scope levels.

                             Table 1: Deficiency Ratings for Nursing Homes

                                                                         SCOPE
                     SEVERITY                             Isolated       Patterned         Widespread
        Immediate jeopardy                                    J              K                 L
        Actual harm that is not immediate                    G               H                 I
        No actual harm with potential for more               D               E                 F
        than minimal harm
        No actual harm with potential for                     A               B                C
        minimal harm

The Division’s district offices understated deficiency ratings for 23 of 178 deficiencies
(13 percent), including severity levels for 10 deficiencies (9 involving actual harm) and scope
levels for 13 deficiencies.

Example of Understated Severity

In a 2007 standard survey for nursing home A, the district office cited a deficiency related to
urinary incontinence (42 CFR § 483.25(d)). The district office determined that the nursing home
failed to prevent urinary tract infections by not continuously monitoring indwelling catheters for
four residents.

The district office reported the following deficiency information for one of the four residents:
On September 21, 2006, one resident was transferred to a hospital emergency room for
evaluation of a midback surgical wound and blood in the urine. On September 22, 2006, the
resident was discharged from the emergency room with a diagnosis of a bladder infection, i.e.,
lower urinary tract infection, and was readmitted to the nursing home. At the time of discharge,
the emergency room nurse informed the nursing home nurse that the resident was returning with
no medication orders and a followup visit with the primary physician was needed within 2 or 3

11
     In the September 10, 2010, revision of the Manual, section 7400E changed to 7400.5.


                                                          7
days. However, there was no documented evidence that the nursing home treated the resident for
blood in the urine and a bladder infection. On September 29, 2006, “the charge nurse [at the
nursing home] documented the resident was lethargic, with foul smelling vaginal discharge and
some blood in the urinary catheter.” The attending physician again ordered the resident to be
transferred to the hospital for evaluation.

The district office assigned the deficiency rating D, indicating a severity level of potential for
more than minimal harm, rather than assigning the deficiency rating G, indicating a severity level
of actual harm. Appendix PP of the Manual provides an example of actual harm related to
urinary incontinence: “As a result of a facility’s noncompliance, the resident … developed
recurrent symptomatic [urinary tract infections] …. As a result of the facility’s noncompliance,
the catheter was improperly managed, resulting in catheter-related pain, bleeding ….” Based on
Appendix PP’s guidelines, the deficiency should have been rated G because the resident
developed a recurrent urinary tract infection, which resulted in blood in the catheter.

Example of Understated Scope

In a 2007 standard survey for nursing home B, the district office cited a deficiency related to
infection control (42 CFR § 483.65(a)). The district office determined that six residents used
respiratory equipment not labeled or dated to comply with infection control standards;
one resident had oxygen tubing on the floor and the oxygen concentrator in the “on” position
when the resident was not using the oxygen; and one resident with methicillin-resistant
Staphylococcus aureus, i.e., a staph infection, was not properly isolated and shared a room with
another resident who did not have a staph infection. In addition, the district office determined
that the nursing home had 22 uncovered tracheotomy suction canisters that contained suctioned
sputum from residents with tracheotomies.

The district office assigned the deficiency rating D, indicating an isolated scope, rather than
assigning the deficiency rating E, indicating a patterned scope. Section IV.C. of Appendix P of
the Manual defines a patterned scope level as “when more than a very limited number of
residents are affected, and/or more than a very limited number of staff are involved, and/or the
situation has occurred in several locations, and/or the same resident(s) have been affected by
repeated occurrences of the same deficient practice.” Based on Appendix P’s guidelines, the
deficiency should have been rated E because more than a very limited number of residents were
affected. The QI unit agreed that the district office should have assigned an E rating.

INADEQUATE CORRECTION PLANS

For deficiencies rated B or higher, Federal regulations (42 CFR § 488.402(d)) require nursing
homes to submit for approval correction plans to the State agency or CMS. Section 2728C of the
Manual says that the State survey agency is responsible for reviewing nursing homes’ correction
plans for appropriateness, legibility, and completeness.

Section 7304D of the Manual states that a correction plan must address the following five
corrective action elements:




                                                8
   •   how corrective action will be taken for those residents found to be affected by the
       deficient practice,

   •   how the facility will identify other residents potentially affected by the deficient practice,

   •   what measures will be put in place or systemic changes made to ensure that the deficient
       practice will not recur,

   •   how the facility plans to monitor its performance to make sure that solutions are
       sustained, and

   •   inclusion of the dates when corrective action will be completed.

Further, section 2728B of the Manual states that a correction plan “must be specific and realistic,
stating exactly how the deficiency was or will be corrected.”

The Division’s district offices did not ensure that 40 of 52 correction plans (77 percent)
contained specific information addressing the 5 corrective action elements for the deficiencies
identified.

The Division’s QI unit reviewed the 40 correction plans and stated:

       Generally … the corrective action plans lacked sufficient corrective actions
       specific to the identified deficient practice(s), effective identification of other
       residents having the potential to be affected, sufficient provision for systemic
       changes to ensure that the deficient practice will not recur, effective oversight
       and/or by appropriate facility staff and/or appropriate timeframes, and effective
       [quality assurance] system integration plan and/or evaluation for effectiveness.

LACK OF VERIFICATION OF DEFICIENCY CORRECTION

Federal regulations (42 CFR §§ 488.330(a)(1) and (b)(1)) require the State survey agency to
certify a nursing home’s substantial compliance with Federal participation requirements and
determine whether the nursing home is eligible to participate in the Medicare and/or Medicaid
program. A nursing home is in substantial compliance when identified deficiencies have ratings
no higher than A, B, or C.

Section 7317 of the Manual requires the State survey agency to conduct a followup survey (i.e.,
an onsite review) to determine whether a nursing home is in substantial compliance for
deficiencies rated G through L, or F involving substandard quality of care. For deficiencies rated
D or E, or F not involving substandard quality of care, the State survey agency has the option to
accept evidence of correction to confirm substantial compliance in lieu of conducting a followup
survey.

For four of nine standard surveys reviewed, the Division’s district offices did not verify
correction of identified deficiencies either through conducting followup surveys or by obtaining


                                                 9
evidence of correction before certifying the nursing homes’ substantial compliance with Federal
participation requirements.

For example, one district office indicated on the 2007 certification letter for nursing home B,
“Based upon an acceptable [correction plan] and allegation of compliance, recommend
recertification.” For the 2007 standard survey of nursing home B, the district office identified a
total of 16 deficiencies with the rating D. Pursuant to the Manual, the 16 deficiencies required
evidence of correction in order for the Division to certify the nursing home’s substantial
compliance with Federal participation requirements.

IMPACT OF FINDINGS

Understated deficiency ratings result in inaccurate information on the Nursing Home Compare
Web site. The ratings also may affect the recommended enforcement actions and the Division’s
method of verifying nursing homes’ correction of identified deficiencies before certifying
substantial compliance with Federal participation requirements. 12 In addition, the district
offices’ practices of not always ensuring the adequacy of correction plans and verifying the
correction of identified deficiencies by obtaining evidence of correction could have contributed
to deficiencies that recurred three or more times from 2006 through 2008. However, we could
not conclusively determine that district office practices contributed to these recurring
deficiencies because a review of the recurrence of deficiencies under other circumstances was
beyond the scope of our review.

Impact on Nursing Home Compare

Understated deficiency ratings result in inaccurate information provided to the public for the
nursing homes on the Nursing Home Compare Web site. The Web site reports each deficiency’s
severity as “level of harm” and scope as “residents affected.” Further, a nursing home’s five-star
rating could be affected because it is based in part on the deficiency ratings. We could not
determine whether the three nursing homes reviewed would have received a lower star rating
because of the understated deficiency ratings.

Potential Impact on Enforcement Actions and Method of Verifying Correction of
Deficiencies

Understated deficiency ratings may affect the recommended enforcement actions and the
Division’s method of verifying correction of identified deficiencies before certifying nursing
homes’ substantial compliance with Federal participation requirements:

     •   Recommended enforcement actions are based on the deficiency rating. A more severe
         enforcement action is required for a higher deficiency rating. For example, a D rating
         requires less severe enforcement, such as in-service training and/or State monitoring of


12
  A deficiency rating that was understated within the same severity level may not require additional enforcement
remedies or a followup survey to verify correction of identified deficiencies before certification of substantial
compliance with Federal participation requirements.


                                                        10
        the nursing home. In contrast, a G rating requires harsher enforcement, such as denial of
        payment for new resident admissions and imposition of civil monetary penalties.

   •    Verification methods are based on the deficiency rating. Deficiencies rated higher, such
        as G, require a followup survey to verify whether the nursing home has addressed the
        identified deficiencies. In contrast, deficiencies rated lower, such as D, do not require a
        followup survey because the surveyor could accept evidence of correction in lieu of
        conducting a followup survey.

Potential Impact on Recurrence of Deficiencies

The district offices’ practices of not always ensuring the adequacy of correction plans and
verifying correction of deficiencies by obtaining evidence of correction could have contributed to
recurring deficiencies. For the 9 standard, 2 followup, and 47 complaint surveys, the district
offices cited 22 deficiencies that recurred 3 or more times from 2006 through 2008:
10 deficiencies for nursing home A, 9 deficiencies for nursing home B, and 3 deficiencies for
nursing home C. However, we could not conclusively determine that district office practices
contributed to these recurring deficiencies because a review of the recurrence of deficiencies
under other circumstances was beyond the scope of our review.

Table 2 provides examples of the deficiencies that recurred three or more times for each nursing
home and the months and years in which each deficiency was identified.

                 Table 2: Examples of Recurring Deficiencies by Nursing Home

       Nursing                                    2005        2006         2007         2008
        Home        Deficiency Category          Survey      Surveys      Surveys      Surveys
                        Pressure sores                         July      September    December
         A          (42 CFR § 483.25(c))                     October
                                                             January
                      Pharmacy services                        May          June         June
         B          (42 CFR § 483.60(a))                     August
                   Comprehensive care plan      December                   March         June
         C          (42 CFR § 483.20(k))

FAILURE TO FOLLOW FEDERAL GUIDANCE

The Division district offices did not always follow guidance in the Manual. According to the
district office supervisors, surveyors used their judgment and interpretation of Manual guidance
in determining deficiency ratings. In addition, surveyors used their judgment in ensuring the
adequacy of correction plans and verifying nursing homes’ correction of identified deficiencies.
Based on our findings that surveyors understated deficiencies, did not ensure that corrective
action plans contained specific information addressing the five corrective action elements, and
did not verify correction of identified deficiencies, it appears that the surveyors used their
judgment in contradiction to the guidance in the Manual.



                                                 11
Our review of the Division’s training manuals revealed that supervisor training on acceptable
correction plans was scheduled for an hour-and-a-half-long session in conjunction with
reviewing the Form CMS-2567. This training may not have been effective because the district
offices accepted 77 percent of correction plans that we reviewed, even though the correction
plans did not contain specific information addressing the 5 corrective action elements for the
deficiencies identified. Division officials stated that they were unaware of the requirements in
section 2728B of the Manual, which provides that a correction plan “must be specific and
realistic, stating exactly how the deficiency was or will be corrected.” The QI unit indicated that
training on correction plans increased beginning in late 2008.

Division officials and the district office supervisors stated that it is standard practice to review
only the information provided in a nursing home’s correction plan to verify the correction of
identified deficiencies before certifying the nursing home’s substantial compliance with Federal
participation requirements when a followup survey was not required. On a case-by-case basis,
the district office may request evidence of correction, or the nursing home may voluntarily
provide evidence of correction for deficiencies rated D or E, or F not involving substandard
quality of care. The Division refers to the process of certifying nursing homes’ substantial
compliance based on correction plans without evidence of correction as “paper compliance.”

RECOMMENDATIONS

We recommend that the Division provide guidance and training to district offices to ensure that
surveyors comply with the Manual in (1) determining appropriate deficiency ratings,
(2) ensuring that correction plans contain specific information addressing the five corrective
action elements for each deficiency identified, and (3) verifying correction of identified
deficiencies by obtaining evidence of correction when followup surveys are not required.

AUDITEE COMMENTS

In its written comments on our draft report, the Division agreed with our recommendations and
provided information on actions that it had taken and planned to take based on our
recommendations. The Division stated that it had included the five corrective action elements as
part of its training program in 2011. In addition, the Division stated that it will include our
training recommendations in its 2012 and 2013 training academies for new, advanced, and
supervisory surveyors.

As part of its comments, the Division provided lesson plans for the training curriculum. The
Division’s comments, excluding the lesson plans, are included as the Appendix.

       OTHER MATTER: NONCOMPLIANT FOLLOWUP SURVEY PRACTICE

The Division’s followup survey practice for deficiencies identified through complaint surveys
does not comply with the State Medicaid plan or the Division’s policy and procedures. The State
Medicaid plan, approved February 26, 1996, stipulates that complaint surveys “requiring a
formal [correction plan] receive a followup [survey] for determination of compliance.” The
Division’s complaint policies and procedures also require surveyors to conduct followup surveys



                                                 12
for deficiencies identified through complaint surveys that require a correction plan. However,
according to the Division, a followup survey is conducted only when a complaint survey
identified serious violations of State regulations or statutes that subject the nursing home to a
financial penalty.




                                                13
APPENDIX
                                                                                                            Page 1 of 4


                              APPENDIX: AUDITEE COMMENTS

                             State of California-Health and Human Services Agency
                         California Department of Public Health

RON CIW'IoWI, MD, MPH

       """"                                                                                          ,­
                                                                                               EDMUND G. BROWN JR.



              UA~   311011
        Lori A. Ahlstrand , Regional Inspector General for Audit Services
        U.S. Department of Health & Human Services, Office of Inspector General 

        Office of Audit Services, Region IX 

        90 - 7th Street, Suite 3-650 

        San Francisco , CA 94103 


        Dear Lori Ahlstrand:

        Enclosed is the California Department of Public Health 's (CDPH) response to the
        Department of Health & Human Services (HHS) Office of Inspector General (DIG) draft
        report, entitled: "Federal Survey Requirements Not Always Met for Three California
        Nursing Homes Participating in the Medicare and Medicaid Programs. " CDPH
        appreciates the opportunity to respond.

        If you have any questions , please contact Karen Petruzzi. CDPH Audit Coordinator, at
        (916) 650-0266.

        Sincerely,


       ~,~r;rr fJ0r.& ~1l1L,V
        Director & State Health Officer

        Enclosure




                        Direc1o(s Office, MS 0500, P.O. Box 997377, Saaamento, CA 95899-7377
                                                      (916) 556·1700
                                         Inlemel Addreu; WW'W,COPH,CA.GOV
                                                                                                             Page 2 of 4




               California Department of Public Health Response to the Office of Inspector General 

                Draft Report: Federal Survey Requirements Not Always Met for Three California 

                       Nursing Homes Participating in the Medicare and Medicaid Programs 

                                                 January 2012 

                                             Report A-09-11-02019 




             RECOMMENDATION 1:

             We recommend that the Division provide guidance and training to district offices
             to ensure that surveyors comply with the Manual in determining appropriate
             deficiency ratings.

             CDPH Response 1:

             The California Department of Public Health (CDPH) agrees with the Office of Inspector
             General's (OIG) recommendation to provide guidance and training to the district offices
             to ensure compliance with the Federal State Operations Manual (Manual) in
             determining appropriate deficiency ratings. The Licensing and Certification (L&C)
             Program has a New Surveyor Long-Term Care (LTC) Academy that every new surveyor
             must attend. This academy provides training on the nursing home survey process,
             which includes the Principles of Documentation, Principles of Investigation, and briefly
             addresses assignment of severity and scope for federal deficiencies and acceptable
             plans of corrections with the five corrective action elements Appendix A provides the *
             lesson plan for "Introduction to Deficiency Writing: Principles of Documentation" module
             for the New Surveyor Academy. In 2012, L&C will develop and provide mandatory
             statewide in-service training to all district office survey staff that will incorporate the
             three OIG recommendations: 1) determining appropriate deficiency ratings, 2) the five
             corrective action elements for an acceptable plan of correction, and 3) correction of
             identified deficiencies by obtaining evidence of correction when follow-up surveys are
             not required. L&C will give this webinar training twice in 2012 and will archive it for later
             use.

             Additionally, L&C will include the OIG training recommendations in the Supervisor
             Academy in April 2012 and the Advanced Surveyor Academy in 2013. Appendix B
             provides an outline of how to determine appropriate deficiency ratings. L&C holds these
             academies every other year, in opposite years, to experienced surveyors, supervisors,
             and managers as refreshers on federal survey processes. CDPH has invited the
             Centers for Medicare and Medicaid (CMS) Region IX Long-Term Care Manager and her
             staff to present at the April 2012 Supervisor's Academy. CDPH asked CMS to discuss
             the findings in OIG report 09-09-00114 (Unidentified and Unreported Federal
             Deficiencies in California's Complaint Surveys of Nursing Homes Participating in the
             Medicare and Medicaid Programs) and OIG report 09-11-02019 (California Department
             of Public Health Response to the Office of Inspector General Draft Report: Federal
             Survey Requirements Not Always Met for Three California Nursing Homes Participating
             in the Medicare and Medicaid Programs). CMS will reinforce the requirements
             established in federal regulations for federal investigation of complaints and facility­
             reported incidents, appropriated scoping of severity of substantiated findings, review of

                                                     Page 1 of 3




·Office of Inspector General Note: We excluded from the Appendix the lesson plans for the training curriculum.
                                                                                                Page 3 of 4




                                                                                   CPDH Response




the elements for an acceptable plan of correction, and review of regulations for follow­
up on-site revisits and/or acceptance of credible evidence for correction of cited
deficiencies.

In the lalter part of 2012, L&C will review deficiency ratings assigned by district offices
for quality assurance monitoring and to assess the effectiveness of the training.

RECOMMENDATION 2:

We recommend that the Division provide guidance and training to district offices
to ensure that surveyors comply with the Manual in ensuring that the corrective
action plans contain specific information addressing the five corrective action
elements for each deficiency identified.

CDPH Response 2:

COPH agrees with the OIG audit recommendation to provide guidance and training to
district offices to ensure surveyors comply with the Manual in ensuring that the
corrective action plans contain specific information addressing the five corrective action
elements for each deficiency identified.

L&C included the five corrective action elements in the April 2011 Advanced Academy
training curriculum (see Appendix C). L&C also incorporated the five corrective action
elements for an acceptable plan of correction into the New Surveyor LTC Academy in
early 2011 .

In addition, on June 30, 2011, L&C implemented mandatory statewide in-service
training (See Appendix 0) to address the five corrective action elements. The in-service
training was given to all of the field district office managers, supervisors and surveyors
involved in the federal survey process. L&C added the three OIG training
recommendations to the Supervisor Academy scheduled for April 2012 and the
Advanced Surveyor Academy that will take place in 2013.

In 2012, L&C will develop and provide mandatory statewide training, via webinar and
archived for later use, to all district offices and continue providing plan of correction and
deficiency training in the New Surveyor LTC Academy. The Advanced Surveyor
Academy and Supervisor Academy will contain training for all three training
recommendations submilted by OIG.

In the lalter part of 2012, L&C will review will plans of corrections from 15 district office
for quality assurance monitoring and to assess the effectiveness of the training.

RECOMMENDATION 3:

We recommend that the Division provide guidance and training to district offices
to ensure that surveyors comply with the Manual in verifying correction of


                                         Page 2 of 3
                                                                                                 Page 4 of 4




                                                                                  CPDH Response




identified deficiencies by obtaining evidence of correction when follow-up
surveys are not required.

CDPH Response 3:

CDPH agrees with the OIG audit recommendation to provide guidance and training to
district offices to ensure that surveyors comply with the Manual in verifying correction of
identified deficiencies by obtaining evidence of correction when follow-up surveys are
not required.

L&C will update the plan of correction training to instruct surveyors to obtain evidence
from the provider that correction has been completed per the plan of correction. The
New Surveyor LTC Academy, the Supervisor Training Academy, and the mandatory
statewide webinar training will incorporate the five corrective action elements and the
requirement for evidence of correction

In the latter part of 2012, L&C will review will plans of corrections from 15 district offices
for quality assurance monitoring and to assess the effectiveness of the training.




                                         Page 3 of 3
